COMMONWEALTH OF MASSACHUSETTS

___ _

Appendix lA ^
APPEALS COURT CLERK'S OFFICE
John Adams Courthouse
One Pemberton Square, Suite 1200
Boston, Massachusetts 02108-1705
(617) 725-8106; mass.gov/courts/appealscourt
Dated: April 29, 2020
Bodhisattva Skandha, Pro Se
MCI Norfolk Box 43 W28163
Norfolk, MA 02056

RE:

No. 2019-P-0847
Lower Court No: 1981CV00246
BODHISATTVA SKANDHA vs. GLORIANN MORONEY
NOTICE OF DOCKET ENTRY
Please take note that on April 23, 2020, the following entry was made on the docket of the above-referenced

case:
ORDER: The plaintiff, Bodhisattva Skandha, is an inmate currently incarcerated at Massachusetts Correctional
Institution at Norfolk (MCI-Norfolk). He appeals from an order dismissing his complaint against Gloriann
Maroney, the Chair of the Massachusetts Parole Board. The complaint appears to challenge a decision by the
parole board denying his request for parole and alleges that Maroney is not authorized to represent the parole
board.
A judge of the Superior Court dismissed the complaint, sua sponte, without prejudice. He ruled as follows:
"The plaintiff inmate brought this action against an attorney with the Parole Board.... In considering [Skandha's
motion for entry of the case without a fee], the court had occasion to review the complaint filed by plaintiff.
Though it appears that plaintiffs claim concerns a decision of the Parole Board, beyond that, plaintiff has failed to
set forth facts that show an entitlement to relief. Put simply, the complaint does not allege w'hat laws were violated
or facts that support the relief requested. Because the complaint fails to state a claim for relief.., the complaint is
dismissed. This dismissal, however, is without prejudice to plaintiff filing an amended complaint, on or before June
5, 2019,... by alleging facts that support entitlement to relief."
The plaintiff did not file an amended complaint. Instead, as noted, he appealed from the order of dismissal.
The defendant argues that because no final judgment entered against the plaintiff, the appeal is interlocutory and
should be dismissed. The defendant is correct. A litigant may prosecute an interlocutory appeal only when
specifically authorized to do so by statute or rule. See Commonwealth v. Vines, 94 Mass. App. Ct. 690, 693 (2019).
We are unaware of any statute or rule that would permit the plaintiff to pursue an appeal in the circumstances
presented. Accordingly, the appeal is dismissed. So ordered. By the Court (Vuono, Blake & Singh, JJ[1]).
*Notice/Attest.
Footnotes:
|1] The panel members are listed in order of seniority
IMPORTANT INFORMATION ABOUT ELECTRONICALLY FILING IN THE APPEALS COURT

-"I

Supreme Judicial Court for the Commonwealth of Massachusetts
John Adams Courthouse
Appendix B
One Pemberton Square, Suite 1400, Boston, Massachusetts 02108-1724
Telephone 617-557-1020, Fax 617-557-1145

Bodhisattva Skandha
MCI - Norfolk (W28163)
P.O. Box 43
Norfolk, MA 02056

RE:

Docket No. FAR-27466

BODHISATTVA SKANDHA
vs.
GLORIANN MORONEY
Middlesex Superior Court No. 1981CV00246
A.C. No. 2019-P-0847
NOTICE OF DENIAL OF APPLICATION FOR FURTHER APPELLATE REVIEW
Please take note that on July 27,2020, the application for further appellate review was
denied.
Francis V. Kenneally, Clerk
Dated: July 27, 2020
To: Bodhisattva Skandha
Matthew P. Landry, A.A.G.
Thomas E. Bocian, A.A.G.

J

Appendix C

COMMONWEALTH OF MASSACHUSETTS
SUPERIOR COURT DEPARTMENT

MIDDLESEX, ss.
BODHISATTVA SKANDHA, et al.,
Plaintiffs

CIVIL ACTION NO.
1681CV02966

V.

CHARLENE BONNER, etal.,
Defendants.

Notice of Withdrawal of Appearance
Now comes the undersigned counsel and notifies the Court that as of this date, she is no
longer representing the Parole Board Defendants in the above captioned matter. Undersigned
counsel is leaving the employ of the Massachusetts Parole Board, effective November 23,2018.
The Parole Board Defendants have appointed the following as successor counsel of
record:
Jennifer Romeo-Porcaro, Legal Counsel
Massachusetts Parole Board
12 Mercer Road
Natick, MA 01760
Respectfully submitted,
For the Defendant,
Amanda N. Early
(Attorney Designated by S AAG, Gloriann Moroney

Amanda N. Early
/I
BBO No. 691948
^
Massachusetts Parole Board
12 Mereer Road
Natick, MA 01760
(508) 650-4558
Dated: November 5, 2018

COMMONWEALTH OF MASSACHUSETTS
SUPERIOR COURT DEPARTMENT

MIDDLESEX, ss.

BODHISATTVA SKANDHA, et al.,
Plaintiffs
CIVIL ACTION NO.

V.

1681CV02966

CHARLENE BONNER, et al.,
Defendants.

DEFENDANTS’ OPPOSITION TO “PIAINTIFFS’ MOTION TO EXPAND THE
RECORD WITH APPENDICES”
NOW come the named Defendants Charlene Bonner, et al, by and through the undersigned
counsel, and hereby request that this Honorable Court deny “Plaintiffs’ Motion to Expand the Record
' with Appendices.” Defendants refer to the affidavit in support, attached hereto and incorporated by
reference.
Respectfully Submitted,
For the Defendant, Massachusetts Parole Board
Jennifer Romeo-Porcaro
Attorney Designated by SAAG, SlmaJoenedetti

'U

fer Romeo-Porcaro
BB/VNo. 665240
Massachusetts Parole Board
12 Mercer Road, Natick, MA 01760
508-650-4510
J ennifer.Romeo-Porcaro@mass.gov

. Je:

Dated: May 16, 2019

«3ovrt

-Atfe,

%

^

TJHe CommonweaftH ofMassachusetts
iExecutive Office of(puSCic Safety andSecurity
PAROLE BOARD
12 Mercer ^gad
tKaticki Massachusetts 01760
Charles D. Baker
Governor
Karyn Polito
Lieutenant. Governor

dekphone # (508) 650-4500,
FacsimiCk # (508) 650-4599

Paul M. Treseler
Chairman

I

Daniel Bennett
Secretary

DECISION
Iftl Trtf MATTER OF

BODHISATTVA SKANDHA
F/K/A RICHARD SEAVER
W28163
TYPE OF HEARING:

Review Hearing

DATE OF HEARING:

October 3,2017

DATE OF DECISION:

Augusts, 2018

-fte.W id
b y i:fO

yn

f/ix

:

;

PARTICIPATING BOARD MEMBERS: Paul M. Treseler, Dr. Charlene Bonner, Tonomey
Coleman, Sheila Dupre, Tina Hurley, Lucy Soto-Abbe
DECISION OF THE BOARD: After careful consideration of all relevant facts, including the
nature of the underlying offense, the age of the inmate at the time of offense, criminal record,
institutional record, the inmate's testimony at the hearing, and the views of the public as
expressed at the hearing or in written submissions to the Board, we conclude by unanimous vote
that the inmate is not a suitable candidate for parole. Parole is denied with a review scheduled
in four years from the date of the hearing.1
I.STATEMENT OF THE CASE
On November 30, 1960, in Middlesex Superior Court, Bodhisattva Skpndha (formerly
known as Richard Seaver) pleaded guilty to second-degree murder in the death of his mother,
Eleanor Seaver, and was sentenced to serve life in prison, In 1972, he filed a petition for
Executive Clemency in the form of a commutation. His petition was granted in 1973, and his
sentence was commuted to a term of 30 years to life with the possibility of parole. He filed a

1 Five Board Members voted to deny parole with a four year review. One Board Member voted to deny parole with
a two year review.
1

?

¥
motion for new trial, over 40 years after he first entered his guilty plea. That motion was denied,
as was the sufasequentappeal and petition forSupreme Judicial Court review.2
On January 4, I960,18-year-old Bodhisattva Skandha (formerly known as Richard Seaver)
murdered his, mother, 42-yearrold EleanorSeaver, in Melrose. That day, he had asked his mother
for permission, to many a 16-year-old girl from RoXbufy> but Ms. Seaver had declined to give, her
son permission. He. responded by stabbing her repeatedly with a pair of scissors,, striking her
with a hammer, and stabbing, her with a knife. Finally, he took a jump rope and an electrical cord
and tied them, around her neck to stop her from coughing. He then put her body in a. closet,
covering it with blankets and'other linens. He removed1 the knob from the closet door; took his
mother's money, checkbook, and car, and then. left, Later that night, Boston police took him into
custody on: an unrelated-matter. He told them he had stabbed: his mother and put her body, in a
.closet, The next day, he gave a statement: to Melrose police, admitting to the. crime, and tie was
arrested.
II. PAROLE HEARING ON SCTdBER 3. 2017
Bodhisattva. Skandha, now 75-years-old, appeared before, the Parole Board for a review
hearing on October 3,2017. He was not represented by counsel. Mr. Skandha was first paroled
in 1974,. but> subsequently, received several violation reports.- He was returned to custody in
1985 for leaving the state of California (where he was then being supervised) Without permission.
He was paroled again in April 1986, In. September of that year, however, he went whereabouts
Unknown, which resulted in the revocation of his parole in 1988. He was re-paroled in 1989, but
was returned to custody in 1992, for failure to advise his parole officer of a change in address
and for alcohol consumption. The Parole Board denied parole after hearings in 1993,1996, 2000,
2003, 2008, and 2013,
In his opening statement, Mr. Skandha asked the. Board to parole him, to his family in
Maine under the lnterstate Compact, stating that he Would agree to wear a GPS system. He cited
his medical issues, claiming that he is ip the process of obtaining medication for manic-depression.
He agreed, that he may be a ’"little bit" bipolar; but when questioned by the Board, he admitted
that he, has not yet seen, a psychiatrist, nor has he engaged in any programming since his last
hearing. Regarding his childhood, Mr. .-Skandha explained that he started to leave home at 8years-old in. order to escape the ^violence and chaos." He indicated that his mother had
emotionally abandoned him, which he had a hard time, accepting, and that he Would act out to
get attention. He acknowledged that he ran away throughout the years, but stated’ that (how)
he doesn't have the. "energy" to take off anymore.
Mr, Skandha said that He takes responsibility’for violating his parole in the past, While on
parole, he stated that he was "whereabouts unknown" from 1986-1988.. He indicated that he
had a 30 day travel pass, but stretched it outfortiWQ years, blaming it on his. son's behavior. He
claimed to have, taken, approximately 25 trips, while on parole, to places such as Denver, St,
Louis, Mexico, New Hampshire, Texas, Alaska, Montana and Hawaii. He took responsibility for
•each trip, stating, "I always thought I was iri the right, but I wasn't in. foe right." Mr. Skandha
said he.was last living in foe community from, 1989 to 1992. A Board Member noted that a lot
has Changed since, then, and asked Mr. Skandha: about his biggest concern if he were to enter
foe community. Mr. Skandha stated that if he gefs paroled, he 'Will learn." Mr, Skandha told foe
Board that he has been without drugs or alcohol for 25 years. He claims to have spent, all of his
2 Commonwealth v. Seaver; .65 Mass. App. Ct 1116 (2006), Commonwealth v.-Seaver, 446 Mass, 1108 (2006)

2

time helping people, which he has enjoyed. He stated that he has been respectful to everyone'
and that he has changed his religion.
When the Board questioned Mr. Skandha about, his Underlying offense, he said, "When
ryou kill your mother it never goes away> it's-always there inside you," He stated that he is very
sad when he thinks, of his mother, A Board Member asked Why he murdered his mother, and he
stated, "1 was in a state of rage* Hesaidthat his mother slapped him and Would not let him get
married. He stated, "I stabbed my mother 26 times." He blames himself, claiming he was angry
to the point that he couldn'tstop what he was doing. He also told the Board that relationships
have not been good for him because when he trusted women, he was rejected. He was married
three times, but stated that he wasn't strong enough to work through problems and so, when
pressures arose, he would take off. He indicated that the problem was with himself. He also
said that he has two children, .but never paid child support. He has one sister .in a nursing home
and talks to her weekly. He stated that his other sister has passed on. When a Board Member
asked Mr. Skandha about his major support tie responded, that it was his niece in Maine..

'i

I

The Board Considered, oral testimony from-- Middlesex County Assistant District Attorney
Melissa Baima who spoke in opposition to Parole, 7 - ■ ’
.«

i

!

1

III. DECISION

i

The Board; is of the opinion that'Mr. Skandha has not demonstrated a level of .rehabijitadve
progress that would 'make: his release' compatible with the: welfare of society. Mr. Skandha has:
yet to address'his causative factors through engagement in relative treatment/proorammina. His
release does not meet the legal standard.
The applicable standard Used by the B'oafd'to assess a candidate for parole is: "Parole
Board Members shall only granta parole permit-if they are of the opinion that there is a reasonable
probability that, if such offender is released, the offender will live and remain at liberty without
violatingthelaw and that release is not incompatible with the welfare of society." 120 G.'M.R.
300,04,' In forming this opinion, the Board has taken into consideration Mr. .Skandha's institutional,
behavior, as Well as his participation in available work, educational, and treatment programs
during the perioddf his incarceration. The Board has also considered a risk and needs assessment
and Whether risk reduction programs could effectively minimize Mr. Skandha's fish of recidivism,.
After applying this standard to the circumstances Of Mr. -Skandha's case, the Board is of the
unanimous opinion that Bodhisattva Skandha is not yet rehabilitated and, therefore, does not
merit parole at this time.
Mr. Skandha's next appearance before the Board will take place in four years from the
date of this hearing. During the interim, the Board encourages Mr. Skandha to continue working
towards his ftilirehabilitation..
I. certify that'this is the decision and. reasons of-the Massachusetts Parofe Board regarding the
above referenced hearing. Pursuant to G.L c. 127, § 130,1 further certify that ail voting Board Members
have reviewed the applicant's entire criminal record. This signature does not indicate authorship of the
decisk

'L
l/feiofiann Moroney, General Counsel

Date
3

11

:

*

Gloriann Moroney
General Counsel
Parole Board
12 Mercer Road
Natick, MA 01760

RE:

Bodhisattva Skandha
Box 43,
Norfolk, MA 02056
December 19, 2018

NOTICE OF TORT CLAIM

I intend to implead you in your personal
capacity for the tort of fraud, misrepresentation
of facts, and the deliberate attempt to deny me
due process of law when you wrote the "Decision"
of August 8, 2018.

"for leaving the state of California,"
"and for alcohol consumption,"
"Montana and Hawaii,"
"Mr. Skandha told the Board that he has
been without drugs or alcohol for 25 years.,"
"yet to address his causative factors through
engagement in relative treatment/programming."
V
/s /
Bodhisattva Skandha, Pro Se

COMMONWEALTH OF MASSACHUSETTS
MIDDLESEX SS.

SUPERIOR COURT
No. 1981cv

Bodhisattva Skandha, plaintiff
-vGloriann Mo.roney, defendant

COMPLAINT
The plaintiff

is a litigant in a civil rights case

against members of the Massachusetts Parole Board.
The defendant has committed fraud in that case
by calling herself a Special Assistant Attorney
General who authorized her sub-agent Amanda N. Early
tro litigate that case, in violation of G.L. c. 12
ss. 3, which states only an attorney general may
represent a stage agent, i.e., parole board members.
The defendant, calling herself "general counsel"
of the Massachusetts Parole Board, wrote the August
8, 2018 Decision using fraudulent statements and
misrepresentations of fact to support her opinion.

-2False statements, include, but are not limited
to:
"for leaving the state of California,"
"and for alcohol consumption,"
"Montana and Hawaii,"
"Mr. Skandha told the Board that he has
been without drugs or alcohol for 25 years,'"'
"Yet to address his causative factors
through engagement in relative treatment/
programming."
The defendant acted outside the purview of her
official capacity as General Counsel by fraudulently
stating facts in her own opinion which are patently
false for which this tort claim alleges is in vio­
lation of settled law and harmed the plaintiff.
Whether of an act or an omission which is of
such character as to subject the defendant to lia­
bility under the principles of the law of torts will
be decided on the facts by a jury, which the plaintiff
demands to try the facts of the case.
As a general principle of tort law, the defen­
dant has a duty to exercise reasonable care to avoid
stating untrue or facts which misrepresent the true

-3facts as delineated in the public hearing held on
October 3, 2017.

This harm was forseeable to the

defendant, recognized by the Due Process Clauses
of Article 12 of the Massachusetts Declaration Of
Rights, and the 14th Amendment to the United States
Constitution.
The plaintiff seeks compensatory and punitive
damages and a ,verdict by the,jury in his favor.

January 23, 2019

. /s/
Bodhisattva Skandha, Pro Se
Box 43,
Norfolk, MA 02056

DOCKET NUMBER

CIVIL TRACKING ORDER
(STANDING ORDER 1-88)

Trial Court of Massachusetts

1981CV00246

The Superior Court

CASE NAME:

Michael A. Sullivan, Clerk of Coi

Bodhisattva Skandha vs. Gloriann Moroney
TO:

—

Middlesex County
COURT NAME & ADDRESS

Bodhisattva Skandha

\

Middlesex County Superior Court 200 Trade Center
Woburn, MA 01801

MCI Norfolk, Box 43
Norfolk, MA 02056

TRACKING ORDER - A - Average
You are hereby notified that this case is on the track referenced above as per Superior Court Standing
Order 1-88. The order requires that the various stages of litigation described below must be completed not later
than the deadlines indicated.
DEADLINE

STAGES OF LITIGATION

FILED BY

SERVED BY

HEARD BY

r
04/25/2019

Service of process made and return filed with the Court
u
I'-'

■

05/28/2019

Response to the complaint filed (also see MRCP 12)
All motions under MRCP 12, 19, and 20

05/25/2019

06/24/2019

07/24/2019

All motions under MRCP 15

03/20/2020

04/21/2020

04/21/2020

All discovery requests and depositions served and non-expert
depositions completed

01/14/2021

All motions under MRCP 56

02/15/2021

r

V

03/15/2021

meqgfwm
07/13/2021

Final pre-trial conference held and/or firm trial date set
Case shall be resolved and judgment shall issue by

F
!

!

01/24/2022

The final pre-trial deadline is not the scheduled date of the conference. You will be notified of that date at a later time.
Counsel for plaintiff must serve this tracking order on defendant before the deadline for filing return of service.
This case is assigned to

DATE ISSUED

01/25/2019

ASSISTANT CLERK

Debra J Newman

PHONE

(781)939-2748

Bodhisattva Skandha
W28163 - Box 43,
Norfolk, MA 02056

Michael A. Sullivan
Clerk of Court
Middlesex Superior Court
200 Trade Center
Woburn, MA 01801

March 4, 2019

• NOTICE OF CLAIM
This is to notify, you that I intend to implead __
you in the Superior Court for breach of fiduciary
duty for your failure to provide me with a summons
to serve the - defendant in Skandha v. Moroney,
No. 1981CV00246, which is necessary for my continued
access to the Courts.1
You will be impleaded in your personal capacity
as your actions are deliberately outside the law
of your official capacity as delineated in Rules
3 & 4 of Mass.R.Civ.P.
/s/
Bodhisattva Skandha, Pro Se

t »

COMMONWEALTH OF MASSACHUSETTS
SUPERIOR COU'R/T

MIDDLESEX SS

n'u 1 ba{'chi‘kyw£46
To:

BoSPis>pn/Vft^Mb^

Order Pursuant to Standing Order 92-\

After review of your complaint and correspondencelthc Court his ordered the following
(V)^The complaint is to be entered without the requirement of a filing-fee.
( )'Summonses are to be provided to the-plaintiff at no cost-.
( ) The plaintiff is to purchase summonses from the ClerKs Office aUhccost'of J5 00 each.
( ) The Court has denned Ibal^c^
tH4 ffll”8 pt'Tfre withmTO da's from the date of this order will result in the disnVtssa, of
Failure tothe complaint.

‘

each named .defendant by certified mail at the plaintiff s expense
(■ -.) Service is to be made on
Office in accordance with tfie atta-ched
The return,of service is 'to be made to thederk-s
instructions.

instructions.■ ( ../A copy of the complaint is-to be sent to the Office of the Attorney
of Corrections by the plaintiff.
i

■CeneFri' otrthe Department

The trial date of this case will be scheduled by the Clerk's Offrce and you will be hotifed.
to the Massachusetts Correctional Legal Services for
( ) A copy of the complaint is to be sent to
review as to legal representation'in this matter.
( -)"Your papers are being returned to you
letter for the reason. .

Dated , iffHi •

without being docketed. Please refer to the attached

By the Cou rt (
■ Attest:

Assistant Clerk.

)

COMMONWEALTH OF MASSACHUSETTS
SUPERIOR COURT
CIVIL ACTION
No. 1981cv246

MIDDLESEX, ss.

BODHISATTIVA SKANDHA
vs.
GLORIANN MORONEY
ORDER

The plaintiff inmate, brought this action against an attorney with the Parole Board. BY
order dated April 4, 2019, the court allowed plaintiffs motion to accept the case without
payment of a filing fee due to plaintiffs indigency. In considering that request, the court had
occasion to review the complaint filed by plaintiff. Though it appears that plaintiff s claim
concerns a decision of the Parole Board, beyond that, plaintiff has failed to set forth facts that
show an entitlement to relief consistent with Mass. R. Civ. P. 8(a). Put simply, the complaint
does not allege what laws were violated or facts that support the relief requested. Because .the
complaint fails to state a claim for relief pursuant to Mass. R. Civ. P. 12(b)(6), the complaint is
dismissed. This dismissal, however, is without prejudice to plaintiff filing an amended
complaint, on or before June 5,2019, which satisfies Rule 8(a) by alleging facts that support
entitlement to relief.
So ordered.
Christopher K. Barry-Smith
Justice of the Superior Court
DATE: April 5, 2019

DOCKET NUMBER

CLERK'S NOTICE

1981CV00246

CASE NAME:

Bodhisattva Skandha vs. Gloriann Moroney

Trial Court of Massachusetts
The Superior Court

Michael A. Sullivan, Clerk of Cou
Middlesex County
!
COURT NAME & ADDRESS

TO:

Bodhisattva Skandha
MCI Norfolk, Box 43
Norfolk, MA 02056

Middlesex Countv Superior Court - Woburn
200 Trade Center
Woburn, MA 01801

You are hereby notified that on 04/05/2019 the following entry was made on the above
referenced docket:
ORDER: The plaintiff inmate brought this action against an attorney with the Parole Board. By order dated April A,
2019, the court allowed plaintiffs motion to accept the case without payment of a filing fee due to plaintiffs
indigency. In considering that request, the court had occasion to review the complaint filed by plaintiff. Though it
appears that plaintiffs claim concerns a decision of the Parole Board, beyond that, plaintiff has failed to set forth
facts that show an entitlement to relief c
Put simply, the complaint does not allege what laws were violated or facts that support the relief requested.
Because the complaint fails to state a claim for relief pursuant to Mass. R. Civ.P. 12(b)(6), the complaint is
DISMISSED. This dismissal, however, is without prejudice to plaintiff filing an amended complaint, on or-before
June 5, 2019 which satisfied Rule 8(a) by alleging facts that support entitlement to relief.
SO ORDERED. Dated: April 5, 2019 and copies mailed
Judge: Barry-Smith, Hon. Christopher K

DATE ISSUED

04/05/2019

ASSOCIATE JUSTICE/ ASSISTANT CLERK

Hon. Christopher K Barry-Snfith

SESSION PHONE#

(781)939-2748

COMMONWEALTH OF MASSACHUSETTS
SUPERIOR COURT

MIDDLESEX SS.

No. 1981CV00246
Bodhisattva Skandha, Plaintiff
- vGloriann Moroney, Defendant

NOTICE OF APPEAL
The plaintif f in'* the ; above-captioned civil
matter,' being: aggrieve'dvof.-the decision by the
Court, Smith, J., pursuant to Mass.R.App.P. 3(a),
when, on April 4, 2019 » the Court ruled the
plaintiff failed to state a claim against the Court's
friend, Moroney.
The Clerk will note there are no transcripts
in this case and the record should be assembled as
soon as possible, not to exceed 40 days.

See ,

Mass.R.App.P. 9(a).
April 15, 2019

/s/
Bodhisattva Skandha, Pro Se
Box 43,
Norfolk, MA 02056

DOCKET NUMBER

NOTICE OF APPEAL FILED

1981CV00246

CASE NAME:

Trial Court of Massachij
The Superior Court /\
Michael A. Sullivan, Clem^f Court
Middlesex County
■ -----

Bodhisattva Skandha vs. Gloriann Moroney

COURT NAME & ADDRESS

TO:

Middlesex County Superior Court - Woburn
200 Trade Center
Woburn, MA 01801

Bodhisattva Skandha
MCI Norfolk, Box 43
Norfolk, MA 02056

On Apr 19, 2019
P. 3(a).

a notice of appeal was filed in the above-entitled case by plaintiff

under Mass. R. A.

Accompanying this notice is a copy of the notice of appeal that was filed in the Clerk's Office under Mass. R. A.
P- 3(d).
Transcripts relevant to the appeal:
*The appellant is responsible for ordering any transcripts relevant to the appeal within 14 days of filing
the notice of appeal, under Mass. R. A. P. 8(b)(1), and in compliance with Trial Court Administrative
Order 19-1 Transcript Procedures for Appellate Review promulgated by the Chief Justice of the Trial
Court.
The appellant shall notify the transcriber to deliver the completed transcripts directry to the Clerk's Office
(not to the appellant) under Mass. R. A. P. 8(b)(3), and in compliance with Trial Court Administrative
Order 19-1: Transcript Procedures for Appellate Review promulgated by the Chief Justice of the Trial
Court. The transcriber will transmit a copy of the transcript in electronic form to all of the parties to the
appeal.
The appellant shall file in the Clerk's Office a copy of the appellant's order for transcripts.
□ This is a criminal case or a case (other than a child welfare case) where counsel was appointed in the trial court,
under S. J. C. Rule 3:10. Accordingly, under Mass. R. A. P. 3(e):
*No later than the date the notice of appeal was filed, appointed trial counsel shall notify the Committee
for Public Counsel Services that appellate counsel should be assigned.
Trial counsel shall continue to represent the appellant until the Committee for Public Counsel Services
appoints appellate counsel and that counsel files an appearance in the trial court.
*Once assigned appellate counsel files a notice of appearance in the trial court, trial counsel may file a
notice of withdrawal (not a motion to withdraw).

DATE ISSUED

04/23/2019

ASSOCIATE JUSTICE

ASSIST/

SESSION PHONE#

Hon. Valerie A Yarashus

Date/Time Printed: 04-23-2019 1527:44

SCV035\ 03/2019

COMMONWEALTH OF MASSACHUSETTS
SUFFOLK, ss.

SUPERIOR COURT DEPARTMENT

STEVEN ARCHER, etal
Plaintiffs
CIVIL ACTION NO.

v.
JOSH WALL, Chairman of the
Massachusetts Parole Board,
Defendant

1384CV04149

SETTLEMENT AGREEMENT AND RELEASE
This Settlement Agreement (“Agreement”) is made and entered into as of the date of the
last signature by a Party hereto (“Effective Date”),by and between Steven Archer (“Mr. Archer”),
Charles Ponticelli (“Mr. Ponticelli”), .and Hung Truong (“Mr. Truong”), collectively, (“the
Plaintiffs”), on one hand, and the Defendant, current and former members of the Massachusetts
Parole Board, including, but not limited to, Josh Wall, [former] Chairman and Paul Treseler,current Chairman (“the Board” or “the Agency”), on the other hand (collectively,’“the Parties”).
WHEREAS, The Plaintiffs filed civilaction Steven Archer, etal. v. Josh Wall, Chairman
of the Massachusetts Parole Board, No. 1384CV04149 in the Suffolk County Superior Court
against the Chairman of the Massachusetts Parole Board, (“the Action”), alleging inter alia
■ violations of constitutional rights, as well as M.G.L. c-127 §133A and 120 CMR 303.00 et. seq.,
in connection with the Plaintiffs’ parole revocation hearings.
WHEREAS, the Parties desire to avoid the continued expense and inconvenience of further
litigation and to finally resolve all claims in this Action. The Plaintiffs agree to dismiss the Action
subject to the terms of this Agreement.
NOW, THEREFORE, in consideration of the mutual covenants, undertakings and
promises set forth herein, and for other good and valuable consideration, the sufficiency of which
is expressly and irrevocably acknowledged, the Parties to this Agreement hereby agree as follows:

•

1. Dismissal of the Action
The Plaintiffs agree to dismiss the lawsuit against the Defendants) with prejudice, waiving
all rights of appeal, with each side bearing its own fees, including attorney’s fees and costs. A
copy of the Stipulation of Dismissal is attached hereto as Exhibit A and will be filed within five
(5) days of the execution of this Settlement Agreement and Release.
2. New Review Hearing
Upon dismissal of the Action, the Board will provide each of the Plaintiffs a review hearing
pursuant to 120 CMR 301.00 (“the Hearing”) as follows:
a. Mr. Archer’s review hearing will be heldin the Month ofOctober, 2018.
The hearing is currently scheduled for October 31, 2018 at 10:00" a.m,
and will occur on that date barring unforeseen circumstances;
b. Mr. Ponticelli’s review hearing will be held in the Month of January,
2020; and
c. Mr. Truong’s review hearing will be held in the Month of November,
2018, but no later than November 16th, 2018. The hearing is currently
scheduled for November 15, 2018 at 2:00 p.m. and will occur on drat
date barring unforeseen circumstances.
3. Record of Decision and Findings for Final Revocation Hearings
The Record of Decision and Findings for Final Revocation Hearings (“Record of
Decision”) shall reflect the procedures contained in 120 CMR 303.23, including, but not limited
to, the Board’s consideration of re-parole, intermediate sanctions and alternatives to confinement,
and information considered by the Board relevant to re-parole pursuant to 120 CMR 303.23. In
an effort to improve upon and clarify Agency policy and procedure, and in conjunction with the
resolution of this matter, new Forms will be' utilized by the Board as the Record of Decision
pursuant to 120 CMR 303.25. Copies of these forms are attached as Exhibit B. The Board reserves
the right to update or make other changes to Exhibit B in form from time to time based upon
improvements or other Agency needs, but shall always comport with 120 CMR 303.23 and reflect
the procedures contained in 120 CMR 303.23, including, but not limited, to, the Board’s
consideration ofre-parole, intermediate sanctions and alternatives to confinement, and information
considered by the Board relevant to re-parole pursuant to 120 CMR 303.23.
4. Release
In consideration of the promises outlined in Paragraphs two (2) and three (3) of this
Agreement, the Plaintiffs, for themselves, their heirs, executors, administrators, successors, and
assigns (collectively, the “Releasors”) hereby remise, release, acquit and forever discharge the
Defendants, their heirs, successors, assigns, agents, servants, employees, and representatives, and
the Parole Board, and any of its present or former members, officials, agents, servants, employees,
and representatives (collectively, the “Releasees”), from any and all actions, causes of action, suits,
accounts, debts, claims, demands, and liabilities of every name and nature, known and unknown,
2

both in law and equity, in tort and in contract and by statute, whether or not previously asserted\y
the Releasors against the Releasees, on account of, or in any way growing out of the revocation
hearings of the Plaintiffs that are the subject of the Complaint of this Action. This release is not
intended to cover any claims the Plaintiffs may assert arising from any future conduct of the
Releasees, including any claims relating to the new hearings or. compliance with this Settlement
Agreement.
No promise or inducement which is not herein expressed has been made to the Plaintiffs,
and in executing this release, the Plaintiffs expressly state that they are not relying upon any
statement or representation made by any person or entity hereby released, or any other person,
firm, or entity, whether representing the Plaintiffs, the Defendants, or any other.
. In the event that the Plaintiffs, initiate any proceeding covered by the Release contained in
Paragraph four (4), against the Defendants or any of the Releasees, the Defendants in the
proceeding shall be entitled to plead this Release as a bar to any such claim.
5.'

-No Admission

The Plaintiffs understand and'agree that the terms of this Agreement constitute a
compromise of disputed claims and that: liability is expressly denied by the Commonwealth of
Massachusetts and its agencies, including the Parole Board, and any of its current or former
employees, including Josh Wall and Paul Treseler. By entering this Agreement, neither the
Commonwealth of Massachusetts, nor its agencies, including the Parole Board, nor any of its
current or former employees, including the current Chairman or any former Chairman, admit that
they have violated any law or legal obligation with respect to the Plaintiffs in any way, nor do the
Plaintiffs admit that their claims were without merit. This Agreement shall not be introduced into
evidence in any court or administrative proceeding other than to enforce its terms.
6.

-Integration

-

The Plaintiffs and the Parole Board agree that this Agreement and its attachments is a fully
integrated document, which constitutes the entire agreement between them.
7.

Enforceability

If any provision of this Agreement shall, for any reason, be held invalid or unenforceable •
in any respect, it shall not affect any other provisions in this Agreement, but shall be construed by
limiting it as so to be enforceable to the maximum extent compatible with applicable law, so long
as such construction does not materially alter the rights or obligations of the Parties or deprive the
other Parties of consideration for the undertakings and promises described herein.
8.

Choice of Law

The validity, construction, interpretation and performance of this Agreement, and any
disputes or legal action arising under or from this Agreement, shall be governed by the laws and
regulations of the State of Massachusetts.

3

>°t

WHEREFORE, the Parties have completely read the above Agreement and attest that
they fully understand its terms knowingly and voluntarily accept its provisions in their entirety
without reservation.
AGREED AND ACCEPTED
For the Plaintiffs)
STEVEN ARCHER,
CHARLES PONTICELLI and
HUNGTRUONG
By-their attorney,

Tatum Pritchard, Esq., BBO # 664502
Prisoner’s Legal Services
10 Winthrop Square
Boston, MA 02110
(617) 482-2773
tpritchard@plsma. ore

For the Defendants,
CHAIRMAN OF THE MASSACHUSETTS
PAROLE BOARD
By its attorney designated by SAAG
Gloriann Moroney,

;SEafa Bdhedetti, Esq., BBO # 684475
Counsel '
Massachusetts Parole Board12 Mercer Road
Natick, MA 01760
Shara.BenedettifSstate.ma.us

v

Dated: September Z\ , 2018

4

EXHIBIT A
.>

i'

;
. .V. . •

COMMONWEALTH OF MASSACHUSETTS
SUFFOLK, ss.

SUPERIOR COURT DEPARTMENT

STEVEN ARCHER, et al

Plaintiff
CIVIL ACTION NO.

v.

1384CV04149

JOSH WALL, Chairman of the
Massachusetts Parole Board,
Defendant

STIPULATION OF DISMISSAL
Pursuant to Rule 41(a)(l)(ii) of the Massachusetts Rules of Civil Procedure, the Plaintiffs
hereby give notice that the above-captioned action is voluntarily dismissed with prejudice, without
costs or attorney’s fees, and with all rights of appeal being waived, against all Defendants
according to the terms of a settlement agreement entered into between the Parties. Plaintiffs have
filed this Stipulation of Dismissal, which has been signed by all Parties. Accordingly, this matter
may be dismissed without an Order of the Court.
Respectfully submitted,
For the Plaintiffs)
STEVEN ARCHER,
CHARLES PONTICELLI and
HUNG TRUONG
By their attorney,

For the Defendants,
CHAIRMAN OF THE MASSACHUSETTS
PAROLE BOARD
By its attorney designated by SAAG
Gloriann Moroney,

T^um'Pritchard, Esq., BBO # 664502
Prisoner’s Legal Services
10 Winthrop Square
Boston, MA 02110
(617)482-2773
tpritchard@Dlsma.org

Shara Benedetti, Esq., BBO # 684475
Counsel
Massachusetts Parole Board
12 Mercer Road
Natick, MA 01760
Shara.Benedetti@state.ma.us

Dated: September

, 2018

c

1

EXHIBIT B

cTHe CommonweaCtU of9/Lassacftnsetts
('Executive Office of(Pu6Cic Safety andSecurity
PAROLE BOARD
. 12 Mercer <Ss>ad
Natick^ Massachusetts 01760
Charles D. Baker
Governor

'Telephone # (508) 650-4500
Facsimile # (508) 650-4599

Katyn Polito
Lieutenant Governor

Paul M. Treseler
Chairman

Daniel Bennett
Secretary

RECORD OF DECISION AND FINDINGS
FINAL REVOCATION HEARING

In the matter of

COMMITMENT NUMBER:
DATE OF HEARING:
DATE OF DECISION:
PARTICIPATING BOARD MEMBERS: Paul M. Treseler, Dr. Charlene Bonner, Tono'mey Coleman, Sheila
Dupre, Tina M. Hurley,. Lucy Soto-Abbe, Collette Santa
I.

DECISION OF THE BOARD:
A. Revocation

□ Revocation Affirmed,
o Revocation not Affirmed.
B. Finding on Rule Violations
□ Violations Found. Description of violations found:

□ No Violations Found

Life Sentence

C. Re-Parole
In determining the parolee's suitability to be returned to parole supervision the Board considered
relevant information pursuant to 120 CMR 303, including but not limited to:
Mitigating factors and circumstances .Yes a No a Not Applicable o
Description of mitigating factors and/or circumstances considered:

Intermediate sanctions in lieu of reincarceration _Yes □ No □ Not Applicable o
Description of intermediate sanctions considered:

Institutional conduct since reincarceration Yes □ No □
Criminal history and/or pending criminal cases Yes □ No □
Home situation Yes o No □
Reports of physical, medical, mental or psychiatric examinations Yes □ No a Not Applicable □
Outstanding domestic restraining orders Yes o No □ Not Applicable □
□ Return to parole supervision.
□ Parolee must comply with the following additional conditions of parole:

□ Re-parole denied. Place on the Next Available List. (PONAL)
Board Member 1:
Board Member 2:
Board Member 3:
Board Member 4:
Board Member 5:
Board Member 6:
Board Member 7:

I certify that this is the decision and reasons of the Massachusetts Parole Board regarding the above
referenced hearing.
Gloriann Moroney

Life Sentence

Date

Tfo CommonweaCtU ofiMassacfiusetts
Executive Office of(Pu6Cic Safety andSecurity
PAROLE BOARD
12 Mercer <Rpacf
Naticf^ Massachusetts 01760
Charles D. Baker
Governor

‘Tefepfione # (508) 650-4500

Karyn Polito
Lieutenant Governor

(Facsimile # (508) 650-4599

Daniel Bennett
Secretary

RECORD OF DECISION AND FINDINGS
FINAL REVOCATION HEARING
In the matter of

COMMITMENT NUMBER:
DATE OF HEARING:
DATE OF DECISION:
PARTICIPATING BOARD MEMBERS:

I.

DECISION OF THE BOARD:
A. Revocation

□ Revocation Affirmed,
a Revocation not Affirmed.
B. Finding on Rule Violations
□ Violations Found. Description of violations found:

□ No Violations Found

Three-Meinber Panel
State Sentence (non-life sentence)

-1-

Paul M. Treseler
Chairman

C. Re-Parole
In determining the parolee's suitability to be returned to parole supervision the Board considered
relevant information pursuant to 120 CMR 303, including but not limited to:
Mitigating factors and circumstances _Yes □ No □ Not Applicable □
Description of mitigating factors .and/or circumstances considered:

Intermediate sanctions in lieu of reincarceration _Yes □ No o Not Applicable □
Description of intermediate sanctions considered:

Institutional conduct ance reincarceration Yes □ No □
Criminal history and/or pending criminal cases Yes-o No □
Home situation Yes □ No a
Reports of physical,, medical, mental or psychiatric examinations Yes a No o Not Applicable □
Outstanding domestic restraining orders Yes □ No □ Not Applicable o
□ Return to parole supervision.
□ Parolee must comply with the following additional conditions of parole:

□ Re-parole denied.
Board Member 1:
Board Member 2:
Board Member 3:
t ..

i

I certify that this is the decision and reasons of the Massachusetts Parole Board regarding the above
referenced hearing.
Board Member

Three-Member Panel
State Sentence (non-life sentence)

Date

<7fo CommonweaCth of Massachusetts
[Executive Office of(PuSCic Safety andSecurity
PAROLE BOARD
12 Mercer <Rpa.cC
Static^ Massachusetts 01760
Charles D. Baker
Governor

TeCephone # (508) 650-4500
[Facsimile # (508) 650-4599

JECaryn Polito
Lieutenant Governor
Daniel Bennett
Secretary

RECORD OF DECISION AND FINDINGS
FINAL REVOCATION HEARING
IN THE MATTER OF

COMMITMENT NUMBER:
DATE OF HEARING:
DATE OF DECISION:
PARTICIPATING BOARD MEMBERS:

I.

DECISION OF THE BOARD:
A. Revocation

□ Revocation Affirmed.
□ Revocation not Affirmed.
B. Finding on Rule Violations
o Violations Found. Description of violations found:

□ No Violations Found
-1One-Member Panel
House of Correction Sentence

Paul M. Treselcr
Chairman

prisoners' Legal Services
10 Winthrop Square, 3rd FI Boston, MA 02110
C. Re-Parole
617-482-2773; WATS 800-882-1413
FAX 617-451-6383
In determining the parolee's suitability3®tberBetHroed^Oin»ff®Ie4*,upen/ision the Board considered
relevant information pursuant to 120 C$^EKB)ll(nbtail8lig7ttfit-rii&iJimited to;
www.mcls.net
Mitigating factors and circumstances. Yes □ No □ Not Applicable □
Description of mitigating factors and/or circumstances considered:

Intermediate sanctions in lieu of reincarceration Yes □ No a Not Applicable □
Description of intermediate sanctions considered:

Institutional conduct since reincarceration Yes □ No □
Criminal history and/oreendino criminal cases Yes o No o
Home situation-Yes □ No □
Resorts of Physical, medical, mental or psychiatric examinations Yes o No o Not Applicable □
Outstanding domestic restraining orders Yes o No □ Not Applicable p

□ Return to parole supervision.
□ Parolee must comply with the following additional conditions of parole:

□ Re-parole denied.
Board Member 1:

I certify that this is the decision and reasons of the Massachusetts Parole Board regarding the above
referenced hearing.
Board Member

Date

-2One-Member Panel
House of Correction Sentence

►

COMMONWEALTH OF MASSACHUSETTS
APPEALS COURT
Case No. 2019-P-0847
BODH3SATTVA SKANDHA,
Plaintiff-Appellant,
v.
GLORIANN MORONEY,
Defendant-Appellee.
MEMORANDUM OF LAW IN LIEU OF BRIEF OF THE
DEFENDANT-APPELLEE, GLORIANN MORONEY
The defendant-appellee, Gloriann Moroney, the Chair of the Massachusetts
Parole Board, asks that this Court dismiss this appeal from an order of the Superior
Court which dismissed, without prejudice, the Complaint filed by the pro se
plaintiff-appellant, Bodhisattva Skandha. Alternatively, Ms. Moroney asks that this
Court affirm the Superior Court’s dismissal order.

BACKGROUND
In 1960, Skandha pled guilty to the second-degree murder of his mother, and
was sentenced to life in prison. See Add. 5-7 (parole decision).1’2 In August 2018,

i

The Addendum to this memorandum is cited as “Add. [page(s)].” Skandha’s brief
is cited as “P. Br. [page(s)].” Skandha’s record appendix is cited as “RA
[page(s)].”
2 This Court may take judicial notice of Parole Board decisions, which are public
records pursuant to G.L. c. 127, § 130. See Reliance Ins. Co. v. City ofBoston, 71
Mass. App. Ct. 550, 555 (2008) (court may take judicial notice of public records).
Additionally, a liberal reading of the Complaint suggests that Skandha intended to
1

the Massachusetts Parole Board (the “Board”) issued a decision denying Skandha’s
most recent request for parole. Id. The decision stated, “After careful consideration
of the facts, including the nature of the underlying offense, the age of the inmate at
the time of offense, criminal record, institutional record, the inmate’s testimony at
the hearing, and the views of the public as expressed at the hearing or in written
submissions to the Board, we conclude by a unanimous vote that [Skandha] is not a
suitable candidate for parole.” Add. 5. The decision was issued on August 8, 2018,
and was signed by the defendant-appellee in this matter, who was then the Board’s
General Counsel. Add. 7. On January 25, 2019, Skandha filed the instant
Complaint. Add. 1 (Superior Court docket sheet).
Upon docketing, the Superior Court (Christopher Barry-Smith, J.) dismissed
the Complaint sua sponte for failing to state a claim upon which relief could be
i

;

granted under Mass. R. Civ. P. 12(b)(6); Add. 2, 4. The dismissal order, in its
entirety, reads as follows:
The plaintiff inmate brought this action against an attorney with the
Parole Board. By order dated April 4, 2019, the court allowed plaintiff’s
motion to accept the case without payment of a filing fee due to plaintiff’s
incorporate the decision into the Complaint by reference. See Schaer v. Brandeis
Univ., 432 Mass. 474, 477-478 (2000) (court may take into consideration “‘matters
of public record, orders, items appearing in the record of the case, and exhibits
attached to the complaint’” (quoting 5A C.A. Wright & A.R. Miller, Federal •
Practice and Procedure § 1357, at 299 (1990))); Mmoe v. Commonwealth, 393
Mass. 617, 620 (1985) (in deciding Rule 12(b)(6) motion, court may not consider
“extraneous” material “not incorporated by reference” in complaint).
2

indigency. In considering that request, the court had occasion to review the
complaint filed by plaintiff. Though it appears that plaintiffs claim concerns
a decision of the Parole Board, beyond that, plaintiff has failed to set forth
facts that show an entitlement to relief consistent with Mass. R. Civ. P. 8(a).
Put simply, the complaint does not allege what laws were violated or facts
that support the relief requested. Because the complaint fails to state a claim
for relief pursuant to Mass. R. Civ. P. 12(b)(6), the complaint is dismissed.
This dismissal, however, is without prejudice to plaintiff filing an amended
complaint, on or before June 5, 2019, which satisfies Rule 8(a) by alleging
facts that support entitlement to relief.
■

'V.

Add. 4. Presumably because it was giving Skandha an additional opportunity to
:

. ?'•

\

......

...

. . ,

file a well-pleaded complaint, the Superior Court did not enter final judgment
a

•'

'•

against him. See Add. 2. However, Skandha did not file an amended complaint;
;

• -.;k: • "

•

■ .

'V;..

:

instead, he filed a notice of appeal from the order dismissing his original
Complaint. Id.
ARGUMENT
I.

Because the Superior Court never entered final judgment, Skandha’s
appeal is interlocutory and not properly before this Court.
This Court should dismiss this appeal without reaching the merits of

Skandha’s claims, because his appeal is not properly before the Court. “Generally,
‘an appellate court will reject attempts to obtain piecemeal review of trial rulings
that do not represent final dispositions on the merits.’” Metzler v. -Lanoue, 62 Mass.
App. Ct. 655, 657 (2004) (quoting Fabre v. Walton, 436 Mass. 517, 520-521
(2002)). As mentioned above, although the Superior Court dismissed the
Complaint, it did so without prejudice, and it gave Skandha an opportunity to refile
3

a well-pleaded amended complaint. But instead of taking advantage of the
opportunity to cure the deficiencies in his Complaint, he filed a notice of appeal.
A final, appealable “judgment” is an act of the lower court that “finally
adjudicate[es] the rights of the parties.” Mass. R. Civ. P. 54(a); see also Mass. R.
A. P. 4(a) (referring to the “judgment, decree, appealable order, or adjudication” as
the proper subject of a notice of appeal). The dismissal order here, however,
'

contemplated further action in the Superior Court, and is thus plainly hot a
document which “finally adjudicates] the parties’ rights.” Nor could any other
entry on the Superior Court docket be so constnied. See Add. 1-2. Therefore, this
appeal must be deemed interlocutory in nature.
A litigant may only prosecute ah interlocutory appeal when specifically
permitted by rule or statute. See, e g., G.L. c. 231, § 118 (“A party aggrieved'by ah
interlocutory order of a trial court justice in the superior court department

may

file, within thirty days of the entry of such order, a petition in the appropriate
appellate court seeking relief from such order.”); Commonwealth v. Vines, 94
Mass. App. Ct. 690, 693 (2019) (“[A]n aggrieved litigant cannot as a matter of
right pursue an immediate appeal from an interlocutory order unless a statute or
rule authorizes it.”). Here, Skandha has not argued that this appeal has been
authorized by any specific statute or rule, nor is the defendant aware of any such
provision that might be applicable under these circumstances. Thus, although the
4

Court may have the discretion to reach the merits of the appeal, it need not, and v
should not, do so

specially in light of Skandha’s extensive history of bringing

frivolous litigation.3 See Metzler, 62 Mass. App. Ct. at 655-657 (deeming appeal
interlocutory where Superior Court allowed motion to dismiss plaintiffs claims
but did not enter final judgment under Rule 54(b)); see also Pollack v. Kelly, 372
Mass. 469, 471 (1977) ( “[W]e have consistently rejected attempts to obtain
piecemeal appellate review by the full.court of interlocutory matters not reported
by the judge making the, interlocutory ruling order, or decisiqn[.]”) (citation
omitted); Giacobbe v. First Coolidge Corporation, 367 Mass. 309 (1975)
,

...

>

, * .r

^ -

.

.

' '

■ ,.1

*

(recognizing that it would be an “unendurable burden on the appellate courts if
they were regularly required to review questions arising from interlocutory matters
prior to the completion of proceedings in the trial courts”).
II.

The Superior Court rightly dismissed Skandha’s Complaint where it
plainly fails to state a claim upon which relief could be granted.
If this Court elects to reach the merits of Skandha’s appeal, it should affirm

the Superior Court’s dismissal order because, as the Superior Court correctly
found, the Complaint fails to state a claim upon which relief could be granted.

3 In light of Skandha’s repeated, frivolous filings in this Court—totaling sixty-one
separate appellate matters under his present and former names—the defendantappellee, through the undersigned counsel, respectfully requests that this Court
grant her motion for a screening order, which was filed on September 27, 2019,
and is presently pending on the docket. See Docket #8.
5

A.

Standard of Review.

This Court reviews a dismissal for failure to state a claim upon which relief
may be granted de novo. Curtis v. Herb Chambers 1-95, Inc., 458 Mass. 674, 676
(2011). On such review, this Court “may consider any ground apparent on the
record that supports the result reached in the trial court.” Feeney v. Dell Inc. , 454
Mass. 192,211 (2009).
To sufficiently plead a claim, a plaintiff must offer factual allegations that
plausibly suggest an entitlement to relief; statements that are merely consistent
with an entitlement to relief are not enough. lannacchino v Ford Motor Co., 451
Mass. 623, 636 (2008) (quoting Bell Atl. Corp. v. Twombly, 550 U.S. 544, 557
(2007)). The “plausibility standard requires [a] ‘context-specific’ inquiry that asks
court to ‘draw on its judicial experience and common sense.’” Lopez v.
Commonwealth, 463 Mass. 696, 712 (2012) (parenthetically summarizing and
quoting Ashcroft v. Iqbal, 556 U.S. 662, 679 (2009)). A complaint must set forth
“more than labels and conclusions .... Factual allegations must be enough to raise
a right to relief above the speculative level... [based] on the assumption that all
the allegations in the complaint are true (even if doubtful in fact)....” Id. (quoting
Twombly, 550 U.S. at 555); see also Vigorito v. City of Chelsea, 95 Mass. App. Ct.
272, 274 (2019) (court will “accept all allegations as true, and draw all reasonable
inferences in the plaintiffs favor”); Ginther v. Comm V ofIns., 427 Mass. 319, 322
6

(1998) (reviewing court accepts as true “the factual allegations in the plaintiffs’
complaint, as well as any favorable inferences reasonably drawn from them”).
Importantly, Rule 12(b)(6) allows “prompt resolution of a case where the
allegations in the complaint clearly demonstrate that the plaintiffs claim is legally
insufficient.” Harvard Crimson, Inc. v. President & Fellows of Harvard College,
445 Mass. 745, 748 (2006).
B.

The Complaint fails to state any claim upon which relief can.be granted.
- - ^ huii-'i it :?lio mau ri.JuT c
•
In his Complaint, Skandha alleged that:f( 1 ) the Parole Board counsefwhol

appeared on behalf of Ms. Moroney in,separate Superior Court litigation wasuot}.
; ''Wi. -

\vy.v

'?■/. .if-ji

•

•

••

••

validly, appointed under
the, Board General Counsel’s
Special
Assistant
Attorney
-jf:c . -yv* ■, >r- ,
■
. •
• •
z>
^General (“SAAG”) designation; (2) the Parole Board’s 2018 decision denying his
most recent request for parole is invalid,because it was signed by its then-General
Counsel, rather than by a sitting Board member; and^^he Board’s/written

J

decision contains several statements of fact which Skandha asserts are]
“fraudulent.” RA 7-9. None of these putative claims satisfies the pleading }
requirements of Rule 8(a), nor does any of them state a claim upon which relief
could be granted under Rule 12(b)(6). The Superior Court properly dismissed the
Complaint.
. First, the Complaint alleges that Ms. Moroney “committed fraud” in a
separate civil case, “by calling herself a Special Assistant Attorney General who
7

!r.
4

authorized her sub-agent Amanda N. Early to litigate that case, in violation of G.L.
c. 12, [§ 3].” RA 7. This claim apparently constitutes an allegation either that Ms.
Moroney was not a validly-designated SAAG, or that she did not validly delegate
her SAAG authority to Attorney Early for the purposes of representing the Board
in that litigation.4
There are no alleged facts to support this bald assertion, which runs counter
to statute. See G.L. c. 12, § 3 (“The attorney general shall appear for the
commonwealth and for state departments, officers and commissions in all suits and
other civil proceedings in which the commonwealth is a party or interested ;.;.
All such suits and proceedings shall be prosecuted or defended by [her] or under
[her] direction.”); Sec’y ofAdmin. & Fin: v. Attorney Gen., 367 Mass. 154, 159
(1975) (“We hold that the Attorney General, as chief law officer of the
commonwealth, has control over the conduct of litigation involving the
Commonwealth.” (quotations and citations omitted)); Alegata v. Commonwealth,
353 Mass. 287, 290 (1967) (noting Attorney General’s explanation that discretion

4 The Complaint does not specify the docket number, or even the named
defendant(s), of this separate “civil rights case.” RA 7. However, in his brief in this
Court, Skandha refers to Skandha v. Bonner, No. 1681-CV-2966 (Mass. Super
Ct.), which is a case in which Skandha sued several members of the Parole Board
in the wake of its decision denying him parole. That complaint, too^ was dismissed
for failure to state a claim under Rule 12(b)(6) on June 18, 2019. See Allen v.
Allen, 89 Mass. App. Ct. 403, 405 (2016) (court may “take judicial notice of court
records in a related proceeding”).
8

over conduct of litigation on behalf of the Commonwealth allowed appointment o
SAAG). By failing to plead any facts to support the assertion regarding Ms.
Moroney’s SAAG designation, the Complaint falls well short of the pleading
requirements of Rule 8(a).
Even if this dubious allegation is taken as true, however, Skandha has no.
standing to claim that the Parole Board, was not validly represented by counsel in
the Superior Court. See Schuster y.Mason, 89 Mass. App, Ct. 1102 (2016)f(Rule
1:28 order) (affirming dismissal under Rule 12(b)(6) where plaintiff lacked
standing); R.J.A. v. K,A. V.,,34 Mqss, App, Ct. 369, 374 n.8 (1993) (“A plaintiff s
proper,standing is a jurisdictional ^prerequisite to being allowed to press the merits
of any legal claim.”).-Tp say the least, the Complaint is silent as to what, if any,
injury Skandha. actually suffered as a result of the Board’s having been represented
by Attorney Early in the course of that litigation. Nor can the defendant conceive
of any such injury. “A party has standing when it can allege an injury within the
area of concern of the statute or regulatory scheme under which the injurious
action has occurred.” Enos v. Sec’y ofEnvtl. Affairs, 432 Mass. 132, 135 (2000).
See R. J. B. Builders & Developers Inc. v. Franks. Durante, Inc., 5 Mass. App. Ct.
788, 789, 360 N.E.2d 667, 667 (1977) (rescript) (affirming dismissal under Rule
12(b)(6) where complaint “did not contain any allegation from which it could have
been inferred that the plaintiff had been injured in-any way” by named defendant).
9

/■

Second, a liberal reading of the Complaint suggests an allegation that the ^
Board’s decision constitutes only the personal opinion of Ms. Moroney herself,
rather than a valid decision of the Board.'The Complaint alleges that certain
statements in the decision merely reflect Ms. Moroney’s “own opinion.” RA 8* ■
^But,-the-decision-itself plainly states that tHe Pafole'BdardXnot Ms.‘Moroney
personally) concluded “by a unahimbus'vote that'[Skandha] is not a suitable

.

candidate for parole.” Add. 5. And, while the decision contains Ms. Moroney5s1'signature, it also States that her signature '‘does riot indicate authorship of the
decision.” Add. 7. To establish that these'statements in the decision are in fact not
true, or that the facially-valid decision (which is a public "record pursuant to G.L. c.
127, § 130) is actually invalid, Skandha’s Complaint needed’to include some
alleged facts to Support that contention. The Complaint, however, contains no such
allegations which, if proven, might show that the decision was anything other than
the valid decision of a unanimous Board denying him parole.
•Third and finally, the Complaint alleged that five specific statements •
contained in the Parole Board’s 2018 decisiori denying him parole-are
“fraudulent,” “misrepreseritations of fact,” and “patently false.” RA 7-8. Such
pejorative labels are, at best, legal conclusions which do not substitute for wellpleaded factual allegations, and must be disregarded under the Rule 12(b)(6)
standard. See Edwards v. Commonwealth, 477 Mass. 254, 260 (2017) (“‘[Courts]
10

do not regard as; “true” legal conclusions cast in the form of factual allegations.’”
(quoting Leavitt v. Brockton Hosp., Inc., 454 Mass. 37, 39 n.6 (2009)); Eigerman
v. Putnam Investments, Inc. , 450. Mass. 281- 282 (2007) (court will not “accept or
set forth ‘ legal conclusions [in the complaint] cast in the form of factual
allegations’”); Iannacchino, 451 Mass: at 636 (under Rule 12(b)(6) standard, to
survive dismissal, a complaint must allege more than‘‘labels and conclusions”
(quoting TWOmbly, 550:U:S. at 555));:y'y ; -Hy,A plaintiff is not allowed. ,to_“resf on subjective characterizations or
conclusory descriptions of a general scenario which could be dominated by
unpleaded facts.” Schaer, 432 Mass, at 478 (citations and quotation marks
omitted); see also .Ehrlich v. Phase Forward Inc., ,80 Mass. App. Ct. 671, 678
(2011) (parenthetically summarizing Schaer). But that is exactly what Skandha’s
Complaint does. Aside from bald assertions of an intentional tort, the Complaint
does not contain any allegations which, if proven, would establish that any of the
statements in the Board’s decision are factually untrue, let alone that the Board
intentionally included information it knew was false in its decision: Thus, this
count of the Complaint also fails to meet the requirements of Rules 8(a) and
12(b)(6). See Grady v. Superintendent, Mass. Treatment Ctr., 84 Mass. App. Ct.
1122 (2013) (Rule 1:28 order) (affirming dismissal of complaint that only
referenced various constitutional provisions without explaining nature of alleged
11

1

?(
violations); Thompson v. Mass. Teachers Ass ’n, 80 Mass. App. Ct. 1107 (2011) ,
(Rule 1:28 order) (upholding dismissal of, among other claims,1 a “hodgepodge of
conclusory allegations”).

;

In his brief on appeal, Skandha attempts to expound upon the barebones
allegations he pleaded in the Complaint. For example, Skandha offers certain
additional assertions regarding the falsity of the statements contained in the
Board’s decision, and he claims that he will be able to substantiate them with the
transcript of his parole hearing. P. Br. TO. Of course, arguments contained in
Skandha’s appellate brief cannot substitute for well-pleaded allegations in the
Complaint, which are conspicuously absent here. A complaint must stand or fall on
its own; extraneous materials that are not incorporated by reference cannot add or
detract from it. Mmoe, 393 Mass, at 620; see also Melia v. Zenhire, Inc., 462 Mass.
164, 165-66 (2012) (at motion to dismiss stage, court may consider allegations
contained in complaint, items appearing in record, and exhibits attached to
complaint (citing Schaer, 432 Mass, at 477)); Iannacchino, 451 Mass, at 636
(rejecting standard by which “‘a wholly conclusory statement of claim would
survive a motion to dismiss whenever the pleadings left open the possibility that a
plaintiff might later establish some “set of [undisclosed] facts” to support
recovery’” (quoting, with alteration, Twombly, 550 U.S. at 560)). Hence,
Skandha’s Complaint is the operative document and any extraneous arguments or
12

documents contained in his brief or record appendix, but not validly incorporated
in the. Complaint, should not be considered.
CONCLUSION
This Court should dismiss the appeal, or, alternatively, affirm the Superior
Court’s order dismissing the Complaint.
. • ?

;

Respectfully submitted !>

\
•. if-,. ./s/Matthew, P. Landry, .
Matthew P. Landry, BBO 690441
if Assistant Attorney General
Criminal Bureau
; One Ashburton Place
; -JX -o
Boston, Massachusetts 02108
,
(617) 963-2677
Matthew.Landry@mass.gov
Dated: December 10, 2019
:

;
:
\

13

/•

CERTIFICATE OF SERVICE
I hereby certify that, on December 10, 2019,1 filed this document on the
Appeals Court’s eFileMA.com application, and mailed a true copy of the same to
the petitioner, first-class postage prepaid, at the following address:
Bodhisattva Skandha, W28163
P.O. Box 43
Norfolk, MA 02056
/s/ Matthew P. Landry
Matthew P. Landry
Assistant Attorney General

14

